No. 20-5279

In the Supreme Court of the United States
WILLIAM DALE WOODEN, PETITIONER
v.
UNITED STATES OF AMERICA
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JOINT APPENDIX
ELIZABETH PRELOGAR
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

ALLON KEDEM
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
allon.kedem@arnoldporter.com

Counsel of Record
for Respondent

Counsel of Record
for Petitioner

PETITION FOR A WRIT OF CERTIORARI FILED: JULY 24, 2020
CERTIORARI GRANTED: FEB. 22, 2021

TABLE OF CONTENTS

Page
Relevant Docket Entries
U.S. Court of Appeals for the Sixth Circuit,
Case No. 19-5189 ..........................................................1
U.S. District Court for the Eastern District of
Tennessee, Case No. 3:15-cr-12 .................................3
U.S. Court of Appeals for the Sixth Circuit
(Case No. 19-5189)
Opinion, Dec. 19, 2019 ...................................................12
U.S. District Court for the Eastern District of
Tennessee (Case No. 3:15-cr-12)
Whitfield County Superior Court Indictment,
Dec. 1, 2016 (Document 41-3) ...................................26
Whitfield County Superior Court Judgment,
Dec. 1, 2016 (Document 41-4) ...................................35
Memorandum Opinion and Order,
Nov. 29, 2017 (Document 59) ....................................37
Transcript (Excerpts) of Feb. 21, 2019,
Sentencing Proceedings (Document 93) .................46

(I)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No. 19-5189
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
WILLIAM DALE WOODEN,
Defendant-Appellant.
RELEVANT DOCKET ENTRIES
DATE

#

PROCEEDINGS

03/01/2019

1

Criminal Case Docketed. Notice filed
by Appellant William Dale Wooden.
Transcript needed: y. (CAM)
[Entered: 03/01/2019 10:41 AM]

05/13/2019

13

APPELLANT BRIEF filed by Mr.
Michael Barrett Menefee for William
Dale Wooden Certificate of Service:
05/13/2019. Argument Request:
requested. [19-5189] (MBM)
[Entered: 05/13/2019 10:48 PM]

07/12/2019

17

APPELLEE BRIEF filed by Mr.
Luke A. McLaurin for USA
Certificate of Service: 07/12/2019.
Argument Request: not requested.
[19-5189] (LAM) [Entered:
07/12/2019 04:13 PM]

(1)

2
DATE

#

PROCEEDINGS

08/16/2019

21

REPLY BRIEF filed by Attorney
Mr. Michael Barrett Menefee for
Appellant William Dale Wooden
Certificate of Service: 08/16/2019.
[19-5189] (MBM) [Entered:
08/16/2019 06:22 PM]

10/21/2019

29

CAUSE SUBMITTED on briefs to
panel consisting of Judges Gilman,
Kethledge and Readler. (JRH)
[Entered: 12/12/2019 09:46 AM]

12/19/2019

30

OPINION and JUDGMENT filed :
AFFIRMED. Decision for
publication. Ronald Lee Gilman,
Raymond M. Kethledge, and Chad A.
Readler (AUTHORING), Circuit
Judges. (CL) [Entered: 12/19/2019
01:41 PM]

01/02/2020

31

PETITION for en banc rehearing
filed by Mr. Michael Barrett Menefee
for William Dale Wooden. Certificate
of Service: 01/02/2019. [19-5189]
(MBM) [Entered: 01/02/2020 05:17
PM]

02/26/2020

35

ORDER filed denying petition for en
banc rehearing [31] filed by Mr.
Michael Barrett Menefee. Ronald Lee
Gilman, Raymond M. Kethledge, and
Chad A. Readler, Circuit Judges.
(BLH) [Entered: 02/26/2020 08:12 AM]

3
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TENNESSEE

No. 3:15-CR-12-TAV-DCP-1
UNITED STATES OF AMERICA,
Plaintiff,
v.
WILLIAM DALE WOODEN,
Defendant.
RELEVANT DOCKET ENTRIES
DATE

#

PROCEEDINGS

03/03/2015

1

INDICTMENT as to William Dale
Wooden (1) count(s) 1. (Attachments:
# 1 Criminal Cover Sheet
Wooden)(JAN, ) (Entered:
03/04/2015)

04/08/2015

5

Minute Entry for proceedings held
before Magistrate Judge C Clifford
Shirley, Jr: Initial Appearance and
Arraignment Hearing as to William
Dale Wooden held on 4/8/2015.
Attorney Benjamin Sharp for William
Dale Wooden appointed. Not guilty
plea entered. Plea Agreement due by
6/3/2015. Jury Trial set for 6/16/2015
at 9:00 AM in Courtroom 4 Knoxville, before Chief District
Judge Thomas A Varlan. Pretrial
Conference set for 6/3/2015 at 10:00

4
DATE

#

PROCEEDINGS

04/08/2015

7

ORDER APPOINTING FEDERAL
DEFENDER as to William Dale
Wooden. Signed by Magistrate Judge
C Clifford Shirley, Jr on April 8, 2015.
(RLK) (Entered: 04/09/2015)

07/21/2016

34

FACTUAL BASIS as to William Dale
Wooden. (Norris, Kelly) (Entered:
07/21/2016)

08/02/2016

35

Minute Entry for Change of Plea
Hearing as to William Dale Wooden
held on 8/2/2016 before Chief District
Judge Thomas A Varlan: Guilty Plea
entered by William Dale Wooden as
to Count 1. ( Sentencing set for
12/7/2016 10:00 AM in Courtroom 4 Knoxville before Chief District Judge
Thomas A Varlan.) (Court Reporter
Jill Zobel, Miller & Miller)Defendant
Remanded to Custody. (JAN, )
(Entered: 08/02/2016)

11/03/2016

36

PRESENTENCE
INVESTIGATION REPORT
(Sealed) as to William Dale Wooden.
Objections or a Notice of No
Objections must be filed within 14
days pursuant to LR 83.9(c).
Instructions can be found here:
http://www.tned.uscourts.gov/

AM in Courtroom 3B - Knoxville,
before Magistrate Judge C Clifford
Shirley Jr. (Court Reporter FTR)
Defendant Remanded to Custody.
(RLK) (Entered: 04/09/2015)

5
DATE

#

PROCEEDINGS

11/09/2016

37

NOTICE OF NO OBJECTIONS to
Presentence Investigation Report by
USA as to William Dale Wooden
(Norris, Kelly) (Entered: 11/09/2016)

11/22/2016

38

NOTICE OF NO OBJECTIONS to
Presentence Investigation Report by
William Dale Wooden (Sharp,
Benjamin) (Entered: 11/22/2016)

11/29/2016

39

NOTICE OF OBJECTIONS to
Presentence Investigation Report as
to William Dale Wooden.
(Attachments: # 1 Exhibit 1997
Burglaries Indictment, # 2 Exhibit
2005 Burglary Indictment)
(McLaurin, Luke) (Entered:
11/29/2016)

12/01/2016

41

SENTENCING MEMORANDUM
by USA as to William Dale Wooden
(Attachments: #1 Aggravated
Assault Indictment, #2 Aggravated
Assault Judgment, #3 Burglaries-ofBuilding Indictment, #4 Burglariesof-Building Judgment, #5 Burglaryof-Dwelling Indictment, #6
Burglary-of-Dwelling Judgment)
(McLaurin, Luke) (Entered:
12/01/2016)

12/06/2016

42

PRESENTENCE
INVESTIGATION REPORT
(Addendum)(Sealed) as to William

docs/psrs.pdf (Ballinger, Rachiel)
(Entered: 11/03/2016)

6
DATE

#

PROCEEDINGS

05/05/2017

44

RESPONSE TO OBJECTIONS to
Presentence Investigation Report by
USA, William Dale Wooden as to
William Dale Wooden. (Sharp,
Benjamin) (Entered: 05/05/2017)

05/10/2017

45

SENTENCING MEMORANDUM
by William Dale Wooden (Sharp,
Benjamin) (Entered: 05/10/2017)

06/21/2017

50

MOTION to Withdraw Plea of Guilty
by William Dale Wooden. (Menefee,
Michael) (Entered: 06/21/2017)

06/21/2017

51

MEMORANDUM in Support of 50
MOTION to Withdraw Plea of Guilty
(Attachments: # 1 Exhibit Ex. 1 Order of Dismissal)(Menefee,
Michael) (Entered: 06/21/2017)

06/26/2017

52

NOTICE OF FILING OF
OFFICIAL TRANSCRIPT of
Proceedings as to William Dale
Wooden held on August 2, 2016,
before Judge Chief Judge Thomas A.
Varlan. Court Reporter/Transcriber
Miller & Miller, Telephone number
865-675-1471. NOTICE RE
REDACTION OF TRANSCRIPTS:
The parties have seven (7) calendar
days to file with the Court a Notice of
Intent to Request Redaction of this
transcript. If no such Notice is filed,
the transcript will be made remotely

Dale Wooden (Ballinger, Rachiel)
(Entered: 12/06/2016)

7
DATE

#

PROCEEDINGS

06/30/2017

54

RESPONSE in Opposition by USA
as to William Dale Wooden re 50
MOTION to Withdraw Plea of Guilty
(Attachments: # 1 Exhibit 1 Transcript of Initial Appearance and
Arraignment Hearing, # 2 Exhibit 2
- Transcript of Change of Plea
Hearing)(Norris, Kelly) (Entered:
06/30/2017)

08/14/2017

55

PRESENTENCE
INVESTIGATION REPORT
(Addendum)(Sealed) as to William
Dale Wooden (Ballinger, Rachiel)
(Entered: 08/14/2017)

08/14/2017

56

(REVISED) PRESENTENCE
INVESTIGATION REPORT
(Sealed) as to William Dale Wooden

electronically available to the public
without redaction after 90 calendar
days. The policy is located on our
website at www.tned.uscourts.gov.
Transcript may be viewed at the
court public terminal or purchased
through the Court
Reporter/Transcriber before the
deadline for Release of Transcript
Restriction. After that date it may be
obtained through PACER. Redaction
Request due 7/17/2017. Redacted
Transcript Deadline set for 7/27/2017.
Release of Transcript Restriction set
for 9/25/2017. (JAN, ) (Entered:
06/26/2017)

8
DATE

#

PROCEEDINGS

11/29/2017

59

MEMORANDUM OPINION AND
ORDER as to William Dale Wooden:
For reasons fully set forth within this
Order defendant’s 50 MOTION to
Withdraw Plea of Guilty filed by
William Dale Wooden is GRANTED.
( Plea Agreement due by 1/16/2018.,
Jury Trial set for 1/30/2018 09:00 AM
in Courtroom 4 - Knoxville before
Chief District Judge Thomas A
Varlan.) The period of timebetween
the defendants guilty plea and the
new trial date shall be fully
excludable time under the Speedy
Trial Act. See 18 U.S.C. § 3161(i).
Signed by Chief District Judge
Thomas A Varlan on November 29,
2017. (JAN, ) (Entered: 11/29/2017)

05/30/2018

68

Minute Entry for proceedings held
before Chief District Judge Thomas
A Varlan:Jury Trial as to William
Dale Wooden held on 5/30/2018, Jury
Verdict finding the defendant guilty
as to Count 1 of the Indictment
( Sentencing set for 10/16/2018 10:00
AM in Courtroom 4 - Knoxville
before Chief District Judge Thomas
A Varlan.), (Court Reporter Shannan
Andrews)Defendant Remanded to
Custody. (JAN, ) (Entered:
05/30/2018)

(Ballinger, Rachiel) (Entered:
08/14/2017)

9
DATE

#

PROCEEDINGS

05/30/2018

69

JURY VERDICT as to William Dale
Wooden (1) Guilty on Count 1.
(JAN, ) (Entered: 05/30/2018)

05/30/2018

70

UNREDACTED JURY VERDICT
(JAN, ) (Entered: 05/30/2018)

11/02/2018

76

PRESENTENCE
INVESTIGATION REPORT
(Sealed) as to William Dale Wooden.
Objections or a Notice of No
Objections must be filed within 14
days pursuant to LR 83.9(c).
Instructions can be found here:
http://www.tned.uscourts.gov/sites/tn
ed/files/psrs.pdf (Ballinger, Rachiel)
(Entered: 11/02/2018)

11/09/2018

77

NOTICE OF NO OBJECTIONS to
Presentence Investigation Report by
USA as to William Dale Wooden
(Davidson, Cynthia) (Entered:
11/09/2018)

11/16/2018

79

NOTICE OF OBJECTIONS to
Presentence Investigation Report
filed by William Dale Wooden.
(JAN, ) (Entered: 11/21/2018)

12/04/2018

81

RESPONSE TO OBJECTIONS to
Presentence Investigation Report by
USA, William Dale Wooden as to
William Dale Wooden. (Davidson,
Cynthia) (Entered: 12/04/2018)

12/11/2018

82

PRESENTENCE
INVESTIGATION REPORT
(Addendum)(Sealed) as to William

10
DATE

#

PROCEEDINGS

12/11/2018

83

(REVISED) PRESENTENCE
INVESTIGATION REPORT
(Sealed) as to William Dale Wooden
(Ballinger, Rachiel) (Entered:
12/11/2018)

01/31/2019

84

SENTENCING MEMORANDUM
by William Dale Wooden
(Attachments: # 1 Exhibit Burglary
Jury Instruction)(Menefee, Michael)
(Entered: 01/31/2019)

02/12/2019

85

RESPONSE re 84 Sentencing
Memorandum (Attachments: # 1
Exhibit 1A - 1997 Burglaries
Indictment, # 2 Exhibit 1B - 1997
Burglaries Judgment, # 3 Exhibit 2A
- 2005 Burglary Indictment, # 4
Exhibit 2B - 2005 Burglary
Judgment, # 5 Exhibit 3A - 1989
Aggravated Assault Indictment, # 6
Exhibit 3B - 1989 Aggravated
Assault Judgment, # 7 Exhibit 4 Georgia Assault Statutes)(McLaurin,
Luke) (Entered: 02/12/2019)

02/21/2019

87

Minute Entry for sentencing hearing
held 2/21/19 before Chief District
Judge Thomas A Varlan: Sentencing
William Dale Wooden (1), to 188
Months Imprisonment followed by 3
Years Supervised Release. $100
Special Assessment. (Court Reporter
Rebekah Lockwood)Defendant

Dale Wooden (Ballinger, Rachiel)
(Entered: 12/11/2018)

11
DATE

#

PROCEEDINGS

02/22/2019

88

JUDGMENT as to William Wooden
188 Months Imprisonment followed
by 3 Years Supervised Release. $100
Special Assessment Signed by Chief
District Judge Thomas A Varlan on
February 22, 2019. (JAN, ) Modified
on 2/22/2019 (JAN, ). Modified on
2/28/2019 (JAN, ). (Entered:
02/22/2019)

02/22/2019

89

STATEMENT OF REASONS
(Sealed) as to William Dale Wooden
(JAN, ) (Entered: 02/22/2019)

Remanded to Custody. (JAN, )
(Entered: 02/22/2019)

12
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No. 19-5189
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
WILLIAM DALE WOODEN,
Defendant-Appellant.
Appeal from the United States District Court
for the Eastern District of Tennessee at Knoxville.
No. 3:15-cr-00012-1—Thomas A. Varlan, District Judge.
Decided and Filed: December 19, 2019
Before: GILMAN, KETHLEDGE, and
READLER, Circuit Judges
COUNSEL

ON BRIEF: Michael B. Menefee, MENEFEE &

BROWN, P.C., Knoxville, Tennessee, for Appellant. Luke
A. McLaurin, UNITED STATES ATTORNEY’S OFFICE, Knoxville, Tennessee, for Appellee.

13

OPINION

CHAD A. READLER, Circuit Judge. While at home
on a cold November morning, William Wooden heard a
knock at the door. Upon opening it, Wooden was greeted
by a man asking to speak with Wooden’s wife. Wooden
went to get her. And he allowed the man to enter the
home, to stay warm while waiting for Wooden to return.
But Wooden’s humane gesture soon became his undoing. As from there, things began to unravel. Wooden
picked up a firearm. The man at the door turned out to
be a plainclothes police officer. And the officer knew that
Wooden was a convicted felon who could not lawfully possess a firearm. Wooden was thus taken into custody.
Wooden was later convicted and sentenced on a felonin-possession charge. On appeal, Wooden asserts two
challenges to that result. With respect to his conviction,
Wooden contends that the officer’s presence in his home
violated the Fourth Amendment, meaning that much of
the evidence used against him should have been suppressed. And as to his sentence, Wooden challenges the
fifteen-year term of imprisonment imposed by application
of the Armed Career Criminal Act. Finding no error in
the district court’s Fourth Amendment or sentencing
analyses, we AFFIRM the decision below.
BACKGROUND

Along with two uniformed officers, Conway Mason,
an Investigator for the Monroe County (Tennessee) Sheriff ’s Department, set out early one chilly November
morning to track down Ben Harrelson, a fugitive wanted
for theft. The officers had previously seen Harrelson’s vehicle parked outside the home of William Wooden and

14
Janet Harris. Believing Harrelson might be hiding inside,
the officers approached the home. Mason, who was not in
uniform, went to the front door, and the two uniformed officers dispersed around the home.
Mason knocked on the door. When Wooden answered,
Mason asked to speak with Harris. Mason also asked if
he could step inside, to stay warm. According to Mason,
Wooden responded “Yes. That’s okay”—which Mason
took to mean he could come inside.
Mason, along with a second officer, entered the home.
As Wooden walked down the hallway, the officers saw him
pick up a rifle. When the officers told him to put the
weapon down, Wooden did as instructed. Mason knew
Wooden was a felon, meaning he could not possess a firearm. So the officers took the rifle and handcuffed and
searched Wooden. During the search, the officers discovered a loaded revolver holstered on Wooden.
Harris gave the officers permission to search the
home. The officers did not find Harrelson. But they did
find a third weapon, a .22 caliber rifle. After waiving his
Miranda rights, Wooden admitted that he possessed all
three firearms as well as ammunition.
Federal prosecutors subsequently filed an indictment
charging Wooden with being a Felon in Possession of Firearms and Ammunition, in violation of 18 U.S.C.
§ 922(g)(1). Wooden in turn moved to suppress the evidence discovered during the search of his home. In his
motion, Wooden argued that the officers violated his
Fourth Amendment rights by entering his home without
a warrant or his consent. The district court, however, denied Wooden’s motion on the basis that Wooden consented
to the officers’ entry. At his subsequent jury trial, Wooden
was convicted as charged.
The probation office prepared a presentence report in
which Wooden was classified as an armed career criminal

15
under the Armed Career Criminal Act (or ACCA), given
that he had three or more prior violent felony convictions.
The basis for the classification was Wooden’s prior Georgia convictions: a 1989 aggravated assault, ten 1997 burglaries, and a 2005 burglary. Wooden objected to the classification. He argued that neither the aggravated-assault
nor burglary offenses qualify as violent felonies under the
ACCA. He likewise contended that the ten 1997 burglaries arose out of a single occasion and thus qualify as a
single ACCA predicate, rather than ten.
At the sentencing hearing, the district court rejected
Wooden’s objections. The court held that the Georgia burglary qualified as a violent felony under the ACCA. As to
Wooden’s 1997 burglary convictions specifically, the court
held that each conviction qualified as a separate ACCA
predicate offense. Wooden filed a timely appeal, and we
now take up these same issues for review.
ANALYSIS
I.

The District Court Properly Denied Wooden’s Motion
To Suppress.

Wooden first challenges the district court’s denial of
his motion to suppress evidence obtained after the officers
entered his home. Wooden cites two purported errors.
One, that he did not consent to the officer’s entry into his
home. And two, even if he did consent, that consent was
not valid because the officer used deception to attain his
consent.
Wooden’s claims invoke the protections afforded by
the Fourth Amendment to the United States Constitution.
That familiar provision preserves “[t]he right of the people to be secure in their persons, houses, papers, and effects[.]” U.S. Const. amend. IV. In recognition of that
right, an officer must have at least “reasonable suspicion”
of criminal activity before infringing on a person’s privacy
and subjecting that person to a search or seizure. See

16
Ornelas v. United States, 517 U.S. 690, 693 (1996) (citing
Terry v. Ohio, 392 U.S. 1 (1968)). In that way, “the Fourth
Amendment Protects ‘[the] security of one’s privacy
against arbitrary intrusion by the police . . . .’ ” David
Levell W. v. California, 449 U.S. 1043, 1048 (1980) (quoting Wolf v. Colorado, 338 U.S. 25, 27 (1949) (alteration and
ellipsis in original)).
The Fourth Amendment, of course, protects people,
not places. But in assessing what protection one is owed,
we must naturally consider the place of the search. And
for Fourth Amendment purposes, the search here occurred on sacred ground, as “the Fourth Amendment has
drawn a firm line at the entrance to the house.” Payton v.
New York, 445 U.S. 573, 590 (1980). This means government agents, oftentimes law enforcement officers, cannot
enter a person’s home unless the officer has a warrant
supported by probable cause, or there exists a valid exception to the warrant requirement. See Kentucky v.
King, 563 U.S. 452, 459 (2011). If officers enter a home
without a warrant and without any other valid justification, courts will suppress the evidence obtained during
that search, rendering the evidence inadmissible at trial.
See Hudson v. Michigan, 547 U.S. 586, 592 (2006).
When analyzing a district court’s decision to deny a
motion to suppress evidence allegedly obtained in violation of the Fourth Amendment, we review the district
court’s legal conclusions de novo. United States v. Carpenter, 926 F.3d 313, 317 (6th Cir. 2019) (quoting United
States v. Lee, 793 F.3d 680, 684 (6th Cir. 2015)). With respect to the district court’s factual findings, however, we
review them only for clear error. See United States v.
Winters, 782 F.3d 289, 294–95 (6th Cir. 2015). A factual
finding is clearly erroneous when we are left with “the definite and firm conviction” that the district court has made
a mistake. United States v. Cooper, 893 F.3d 840, 843 (6th
Cir. 2018) (citation omitted). In examining the underlying

17
evidentiary record, we defer to the district court’s assessment of each witness’s credibility, and we review the evidence in the light most likely to support the district court’s
decision. United States v. Lawrence, 735 F.3d 385, 436
(6th Cir. 2013) (citations omitted).
A.

The District Court’s Determination That Wooden
Consented To Mason Entering His Home Was Not
Clearly Erroneous.

1. As a state law enforcement officer, Mason was
bound by the constraints of the Fourth Amendment in investigating criminal activity on the part of Wooden. One
constraint was the warrant requirement, and all parties
agree that Mason did not have a warrant authorizing him
to search Wooden’s home. To validate Mason’s search under the Fourth Amendment, then, there must be an applicable warrant exception justifying Mason’s entry into the
home.
Relevant today is the warrant exception applicable in
instances where an occupant of a home consents to an officer’s entry. Georgia v. Randolph, 547 U.S. 103, 109
(2006). Where an occupant’s consent is freely given, and
not the result of undue coercion, the resulting search satisfies Fourth Amendment muster.
Schneckloth v.
Bustamonte, 412 U.S. 218, 228 (1973). Wooden contends
that he did not consent to Mason’s entry. But in disputing
that factual finding, Wooden faces an uphill climb at this
stage, in view of our deferential standard of review. That
is, Wooden’s arguments must lead us to “the definite and
firm conviction” that the district court erred in assessing
the record. Cooper, 893 F.3d at 843. Wooden has not met
his burden.
2. We start with two points of agreement. All agree
that if Wooden gave valid consent to Mason’s entry, the
district court properly denied Wooden’s motion to suppress. And all agree that, when Wooden answered

18
Mason’s knock on the door, Mason asked if he could speak
with Harris, and asked if he could wait inside in the meantime.
From there, the parties diverge. Mason, while not
certain of the exact words Wooden used in response, testified that Wooden told him he could wait inside. Wooden,
on the other hand, testified unequivocally that he did not
consent to Mason’s entry. Seizing on Mason’s partial
equivocation, Wooden says that he was the more credible
witness, noting that only he could remember exactly what
was said between the two.
Assessing that collection of testimony, the district
court held that Wooden did in fact consent to Mason’s entry. Yes, as Wooden notes, the testimony was at times conflicting. But the responsibility for weighing conflicting
testimony lies primarily with the district court, and its
conclusions are given due respect. The district court evidently credited Mason’s testimony, a determination to
which we customarily defer, given the district court’s
front-row view of the evidentiary proceedings. See Lawrence, 735 F.3d at 436, 438. Seeing no “definite and firm”
basis for discrediting the district court’s assessment that
Wooden consented to Mason entering his home, there was
no clear error below warranting reversal. See Cooper, 893
F.3d at 843.
B. The Fruits Of The Search Were Not Obtained As
A Result Of Police “Deception.”

Disagreeing that he consented to the search of his
home, Wooden alternatively argues that any purported
consent was obtained through deception, making it invalid. But as forcefully as he makes that argument today,
Wooden failed to do so in the district court. That failure
begs the question whether there is any basis for this
Court to consider the argument.

19
Sometimes, the failure to raise an issue in the district
court is deemed a “waiver,” meaning that we will not consider the claim at all. See, e.g., United States v. Street, 614
F.3d 228, 235 (6th Cir. 2010). Other times, we will deem an
unraised argument as merely “forfeited,” meaning that
we will consider the claim, but only against the backdrop
of the demanding plain-error standard. See, e.g., United
States v. Mabee, 765 F.3d 666, 671 (6th Cir. 2014). When
and how those doctrines apply is not always easy to assess, a struggle our cases oftentimes reflect. Our Fourth
Amendment jurisprudence is no exception. Indeed, our
prior cases assessing the waiver/forfeiture distinction in
the context of motions to suppress reveal some apparent
tension. A case in point is United States v. Deitz. In Deitz,
we noted that a defendant’s failure to file a motion to suppress is treated as a waiver of suppression issues. 577 F.3d
672, 687 (6th Cir. 2009). So far, so good. But we went on
in Deitz to distinguish the scenario of failing to file a motion to suppress with the scenario of filing a motion to suppress that nonetheless failed to raise an argument later
asserted on appeal. And that latter setting, we noted, we
had previously treated as a forfeiture, rather than a
waiver. Id.
Recognizing the potential conflict between applying
waiver in one suppression setting and forfeiture in another, Deitz assumed without deciding that forfeiture applies when some (but not all) suppression arguments are
raised in an unsuccessful motion to suppress. Accordingly, Deitz applied a plain-error standard to the previously unraised argument. Id. at 691. Today, we follow
Deitz’s lead. That is, assuming for purposes of argument
that Wooden’s unraised suppression claim is properly before us, Wooden nonetheless cannot demonstrate plain error.
More settled is the standard we apply in evaluating
the proceedings below for plain error. Plain error means

20
an “(1) error (2) that was obvious or clear, (3) that affected
defendant’s substantial rights and (4) that affected the
fairness, integrity, or public reputation of the judicial proceedings.” United States v. Vonner, 516 F.3d 382, 386 (6th
Cir. 2008) (en banc) (internal quotation marks omitted).
No such error occurred here.
Much of Wooden’s challenge turns on the fact that
Mason was neither in uniform nor identified himself as a
police officer. Both are true. But generally speaking, neither amounts to improper deception in the Fourth
Amendment context. United States v. Baldwin, 621 F.2d
251, 252–53 (6th Cir. 1980) (citing Lewis v. United States,
385 U.S. 206, 211 (1966)). Nor did Mason take any affirmative steps to attempt to deceive Wooden regarding his
identity. Mason was silent as to his official position; he did
not hold himself out to be anything he was not. He merely
asked to speak to Harris and then asked if he could come
inside, to get out of the cold.
Wooden has little to say in response. He seems to suggest that we should revisit Baldwin in light of the Supreme Court’s decisions in Florida v. Jardines, 569 U.S.
1 (2013), and United States v. Jones, 565 U.S. 400 (2012),
which, together, described the Fourth Amendment’s roots
in the common law of trespass. Even accepting that latter
understanding of the Fourth Amendment, it will nevertheless remain true that an officer’s undercover status
does not amount to deception under ordinary trespass
principles. Wooden finds deception in the fact that he
could not see the two uniformed officers on or near his
property. But that is neither here nor there. The officers
were not required to announce themselves. And their
presence had no bearing on whether Mason did something
to deceive Wooden. All told, the district court did not err,
plainly or otherwise, in failing to equate Mason’s conduct
with improper deception. For these reasons, Wooden’s
consent-by-deception claim fails.

21
II. Wooden’s Ten Burglary Convictions Were Each
ACCA-Qualifying Offenses.

1. In addition to the denial of his motion to suppress, Wooden also challenges the district court’s decision
to sentence Wooden under the ACCA. At issue here is the
ACCA’s instruction that a defendant is subject to a fifteenyear minimum sentence if the defendant has previously
been convicted of at least three ACCA-qualifying offenses. 18 U.S.C. § 924(e)(1).
That brings us to Wooden’s numerous prior convictions under Georgia law: one for aggravated assault and
eleven for burglary, ten of those coming in 1997. In view
of Wooden’s criminal history portfolio, the probation office
recommended that Wooden be classified as an armed career criminal. Wooden objected to that recommendation
on two grounds: one, that neither Georgia’s aggravatedassault nor burglary offense is an ACCA-qualifying offense, and two, even if Georgia’s burglary offense so qualifies, the ten 1997 burglaries arose out of a single occurrence, meaning they qualified as a single ACCA predicate.
But the district court saw things differently. It determined that the Georgia burglaries were ACCA-qualifying
offenses and, further, that Wooden’s ten 1997 convictions
each counted as a qualifying offense.
2. As set forth in 18 U.S.C. § 924(e)(1), to qualify as
separate ACCA predicate offenses, multiple offenses
must be “committed on occasions different from one another.” So what does it mean for offenses to occur on different occasions? Our ordinary interpretive starting line
is the text of the statute at issue. But neither § 924 nor its
statutory counterparts offer any further definition of the
phrase.
In the absence of additional statutory direction, our
prior decisions have helped fill this interpretive gap, albeit
with some lack of precision. Start with United States v.

22
Hill. There, we recognized “at least three indicia that offenses are separate from each other”:


Is it possible to discern the point at which the first offense is completed and the subsequent point at which
the second offense begins?



Would it have been possible for the offender to cease his
criminal conduct after the first offense and withdraw
without committing the second offense?



Were the offenses committed in different residences or
business locations?

United States v. Hill, 440 F.3d 292, 297–98 (6th Cir. 2006)
(collecting cases); see also United States v. Paige, 634 F.3d
871, 873 (6th Cir. 2011). But Hill in many respects serves
only as a starting point. After all, we have characterized
it as articulating “informative standards, not hidebound
rules.” United States v. Jenkins, 770 F.3d 507, 510 (6th
Cir. 2014). Said differently, Hill, far from establishing a
bright-line, three-factor analysis, instead simply
“sharpen[ed] the [different occasions] inquiry by focusing
the court on the kinds of questions that have come up in
prior ACCA cases.” Id. And so while it is true that
“[o]ffenses are separate if they meet any of these three
tests” articulated in Hill, United States v. Jones, 673 F.3d
497, 503 (6th Cir. 2012) (emphasis in original) (citing
Paige, 634 F.3d at 873), the Hill inquiries seemingly are
just some of the questions to which an affirmative answer
would reveal that multiple offenses should be deemed separate. See Jenkins, 770 F.3d at 510 (describing the “any
of these three tests” statement from Jones as dictum).
3. To the extent there remains any precedential uncertainty in this sentencing setting, it makes no difference
here, for Wooden’s argument comes up short, no matter
the metric. Back to Wooden’s ten convictions for violating
Georgia’s burglary statute, Ga. Code Ann. § 16-7-1 (a)
(1997). One violates that Georgia law when she “enters or
remains within” a “building” to commit an offense. Id.

23
Recognizing that Hill may be more a floor than a ceiling
with respect to articulating the characteristics of a separate offense, we can easily resolve today’s case by relying
on Hill’s guidance alone.
Against the backdrop of Hill, we must first consider
whether it is possible to discern the point at which
Wooden’s first offense for entering or remaining in a
building was completed and the subsequent point at which
his second offense began. Wooden believes the record is
too thin to make that assessment. But the indictment to
which Wooden pleaded guilty provides all the record we
need. See United States v. King, 853 F.3d 267, 272 (6th
Cir. 2017) (citing Shepard v. United States, 544 U.S. 13, 20
(2005)) (holding that when a guilty plea leads to a conviction for violating a statute with alternative elements,
courts look to certain documents in the record to determine whether that conviction qualifies as an ACCA predicate). Wooden was accused of, and pleaded guilty to, “entering” ten different mini warehouses. Whatever the contours of a “mini” warehouse, Wooden could not be in two
(let alone ten) of them at once. Rather, Wooden must have
left one warehouse to “enter” another. It takes little imagination then to conclude that Wooden “entered” ten separate warehouses, and thus committed ten distinct acts of
burglary, as measured by Georgia law.
This conclusion accords with Hill. There, we determined that two burglary offenses were separate offenses
despite Hill arguing that there was “not a discernable
lapse of time between them.” Hill, 440 F.3d at 295. By
way of background, Hill committed a burglary, left the location, and then illegally entered and stole from a separate location. That course of conduct, we concluded,
counted for two burglaries, not one, as the first burglary
was completed before the next one began. Id. For
§ 924(e)(1) purposes, then, those burglaries constituted
two ACCA predicate offenses. Id. at 297–98.

24
For many of the same reasons, Wooden satisfies the
second and third Hill guideposts as well. Start with the
second—whether Wooden could have ceased his criminal
conduct after the first offense and withdrawn without
committing the second offense. We see no reason why it
would have been impossible for Wooden to call it a night
after the first burglary, without burglarizing nine more
warehouses.
So too for the third Hill guidepost—whether
Wooden’s offenses were committed in different locations.
They were. Each warehouse was its own location, with its
own building number and storage space. And there were
many different lawful occupants of those warehouses.
Perhaps, as Wooden does, one could characterize this cluster of warehouses as being adjoined “at the same business
location.” Hill too spoke of different “residences or business locations,” a phrase intended to assess whether each
offense infringed upon a different bundle of property
rights for ACCA purposes. In Hill, we concluded that the
offenses were committed at different locations, as they involved different property rights. And using Hill as a
yardstick, the same must be true for Wooden, who was
convicted of burglarizing ten individual warehouses (rather than one storage business), and thus infringing upon
ten distinct sets of property rights.
By any measure, then, Wooden satisfies the Hill
standard. That means his burglary offenses were separate offenses for purposes of the ACCA, and thus there
was no error in his imposed sentence.
III. Wooden’s Claim Based On Rehaif v. United States Is
Forfeited.

In his reply brief, Wooden claims for the first time
that the government failed to prove that Wooden knew he
was a convicted felon. And citing Rehaif v. United States,
139 S. Ct. 2191, 2194 (2019), Wooden contends that

25
proving he had knowledge of his status as a felon is an essential element of being deemed a felon in possession of a
firearm under 18 U.S.C. § 922(g)(1). Like the defendant
in Rehaif, Wooden grounds his claim in the jury instructions outlining the elements of § 922(g). Both in Rehaif
and here, the respective jury instructions omitted any instruction to the jury that the government needed to prove
the defendant’s knowledge of his prohibited status. 139 S.
Ct. at 2195.
Setting aside the distinct nature of the underlying issue in Rehaif, Wooden has an equally difficult procedural
hurdle to clear. That is, we have long held that a party
forfeits any claim that is not set forth in the party’s opening brief. Island Creek Coal Co. v. Wilkerson, 910 F.3d
254, 257 (6th Cir. 2018). Yes, the Supreme Court decided
Rehaif after Wooden filed his opening brief. But the Supreme Court granted the petition for certiorari and heard
oral argument in Rehaif well before Wooden’s filing. In
that way, the legal issue here—whether Wooden’s jury instructions needed to explain that the government must
prove Wooden’s knowledge of his prohibited status—was
at the forefront of the relevant legal landscape. See id.
(noting that when an argument is being presented by litigants in other jurisdictions, not presenting that argument
is a forfeiture even when subsequent decisions make that
argument more apparent). And it would be self-refuting
for Wooden to argue that he could not have presented his
claim until after Rehaif was decided. After all, the defendant in Rehaif did just that. Accordingly, Wooden’s Rehaif
claim is forfeited.
CONCLUSION

For these reasons, we AFFIRM the judgment of the
district court.

26
STATE OF GEORGIA, WHITFIELD COUNTY
IN THE SUPERIOR COURT OF SAID COUNTY
THE GRAND JURORS SELECTED, CHOSEN AND
SWORN FOR THE COUNTY OF WHITFIELD, TO-WIT:

Julia Tharpe, Foreman
Cynthia Clark
Roger Coffman
Mike Corbin
Stephani Wagener
Terry G. Hampton
John Boykin
James M. Stephens
Glenda S. Thomas
Connie E. Carnes
Linda O’Neal
Ed Freedman
Sue P. Boyd
J. Robert Beavers Jr.
Nancy Gregg
Carolyn Godfrey
Alan Little
Lucille Burchfield
J. M. Boring Jr.
Stella Crider
Florence Brent
Evelyn Smith
Sue Tuggle
COUNT I

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
BURGLARY

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did, without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #17, located at 100 Williams Road, Robert Lee
Holt being the lawful occupant, contrary to the laws of
said State, the good order, peace and dignity thereof.

27
COUNT 2

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE DAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
BURGLARY

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did, without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #19, located at 100 Williams Road, Robert Lee
Holt being the lawful occupant, contrary to the laws of
said State, the good order, peace and dignity thereof.
COUNT 3

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
BURGLARY

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did, without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #18, located at 100 Williams Road, John Davis
being the lawful occupant, contrary to the laws of said
State, the good order, peace and dignity thereof.
COUNT 4

In the name and on the behalf of the citizens of Georgia,
charge and accuse

28
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
BURGLARY

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did, without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #14, located at 100 Williams Road, John Davis
being the lawful occupant, contrary to the laws of said
State, the good order, peace and dignity thereof.
COUNT 5

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
BURGLARY

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did, without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #15, located at 100 Williams Road, John Davis
being the lawful occupant, contrary to the laws of said
State, the good order, peace and dignity thereof.
COUNT 6

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

29
with the offense of
BURGLARY

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did, without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #16, located at 100 Williams Road, Vicky &
Phil Elder being the lawful occupants, contrary to the
laws of said State, the good order, peace and dignity
thereof.
COUNT 7

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
BURGLARY

for that the said accused in the County of Whitfield and
the State of Georgia, between the 24th and 25th days of
March, 1997 did without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #2, located at 100 Williams Road, James &
Joan Payne being the lawful occupants, contrary to the
laws of said State, the good order, peace and dignity
thereof.
COUNT 8

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

30
with the offense of
BURGLARY

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did, without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #20, located at 100 Williams Road, Paula Adcock being the lawful occupant, contrary to the laws of
said State, the good order, peace and dignity thereof.
COUNT 9

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
BURGLARY

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did, without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #1, located at 100 Williams Road, Bud
McCollough being the lawful occupant, contrary to the
laws of said State, the good order, peace and dignity
thereof.
COUNT 10

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
BURGLARY

31
for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did, without authority and with the intent to
commit a theft therein, enter a building, to wit: the miniwarehouse #13, located at 100 Williams Road, Bud
McCollough being the lawful occupant, contrary to the
laws of said State, the good order, peace and dignity
thereof.
COUNT 11

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
THEFT BY TAKING

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did unlawfully take, several cassette tapes,
one swag, one drop cord, one air tank, one tape measure,
one tape case stand, one pair of yellow handled snips, one
pair of pliers, one red hammer, and one crescent wrench,
the property of Vicky and Phil Elder, with a value greater
than $500, with intent to deprive said owner of said property, contrary to the laws of said State, the good order,
peace and dignity thereof.
COUNT 12

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

32
with the offense of
THEFT BY TAKING

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did unlawfully take, one weed trimmer, one
12 ton jack, one CB amplfier, one typewriter, two flyrod
fishing poles, one Zebco 202 fishing rod and reel, one gold
25th anniversary coin, 1 vase and one black lighter, the
property of James and Joan Payne, with a value greater
than $500, with intent to deprive said owner of said property, contrary to the laws of said State, the good order,
peace and dignity thereof.
COUNT 13

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
CRIMINAL DAMAGE TO PROPERTY IN THE
SECOND DEGREE

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did intentionally damage the property of
John Davis Jr., to wit: the miniwarehouses located at 100
Williams Road, by forcibly entering said building and
crushing the interior drywall of several rooms of the miniwarehouse building, said damage exceeding five hundred
dollars ($500.00), contrary to the laws of said State, the
good order, peace and dignity thereof.
COUNT 14

In the name and on the behalf of the citizens of Georgia,
charge and accuse

33
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
THEFT BY TAKING

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did unlawfully take, a toolbox and tools, the
property of Michael Hogsed, with a value less than $500,
with intent to deprive said owner of said property, contrary to the laws of said State, the good order, peace and
dignity thereof.
COUNT 15

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

with the offense of
THEFT BY TAKING

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did unlawfully take, a Craftsman toolbox and
various tools, the property of Robert Lee Holt, with a
value less than $500, with intent to deprive said owner of
said property, contrary to the laws of said State, the good
order, peace and dignity thereof.
COUNT 16

In the name and on the behalf of the citizens of Georgia,
charge and accuse
DEXTER DEWAYNE BAGGETT, MELVIN GRADY
WASDIN, TERRY LYNN WOODEN AND WILLIAM
DALE WOODEN

34
with the offense of
THEFT BY TAKING

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did unlawfully take, one silver ring, assorted
costume jewelry, one Brittania watch, one white heatlamp,
one Polaroid camera, one Coleman stove & lantern, the
property of Paula Adcock, with a value less than $500, with
intent to deprive said owner of said property, contrary to
the laws of said State, the good order, peace and dignity
thereof.
COUNT 17

In the name and on the behalf of the citizens of Georgia,
charge and accuse
SHIRLEY LYNN RUSSELL

with the offense of
THEFT BY RECEIVING STOLEN PROPERTY

for that the said accused in the County of Whitfield and
the State of Georgia between the 24th and 25th days of
March, 1997, did receive and dispose of stolen property, to
wit: assorted cassette tapes, one 12 ton jack, some drop
cords, a swag, a toolbox and tools, the property of Michael
Hogsed, Vicky and Phil Elder, James and Joan Payne,
with a value greater than $500, which she knew or should
have known was stolen, said property not having been received and disposed of with intent to restore it to said
owner, contrary to the laws of said State, the good order,
peace and dignity thereof.

35
IN THE SUPERIOR COURT OF WHITFIELD COUNTY, GEORGIA
FINAL DISPOSITION

vs
CRIMINAL ACTION NO. 37326-J
OFFENSE(S) Cts. 1–10: Burglary-F;

WILLIAM DALE WOODEN

Cts. 11 & 12: Theft by Taking–F; Ct.
13: Criminal Damage to Property 2nd
Dg.–F; Cts. 14, 15 & and 16: Theft by
Taking–M
JULY TERM, 1997

☒ PLEA:
☐ NEGOTIATED
☒ GUILTY ON COUNT(S) 1–16
☐ NOLO CONTENDERE ON
COUNT(S)
☐ TO LESSER INCLUDED
OFFENSE(S)
☐ ON COUNT(S)

☐ JURY
☐ NON-JURY

☐ VERDICT:
☐ GUILTY ON
COUNT(S)
☐ NOT GUILTY ON
COUNTS(S)
☐ GUILTY OF INCLUDED
OFFENSE(S) OF
ON COUNT(S)

☐ OTHER DISPOSITION
☐ NOLLE PROSEQUI
ORDER ON COUNT(S)
☐ DEAD DOCKET
ORDER ON COUNT(S)

(SEE SEPARATE ORDER)
☐ DEFENDANT WAS ADVISED OF HIS/HER RIGHT TO
HAVE THIS SENTENCE REVIEWED BY THE SUPERIOR
COURTS SENTENCE REVIEW PANEL

☒ FELONY SENTENCE

☐ MISDEMEANOR SENTENCE

36
WHEREAS, the above-named defendant has been found
guilty of the above-stated offense, WHEREUPON, it is
ordered and adjudged by the Court that the said
defendant is hereby sentenced to confinement for a period
of
Ct 1: 8 Years
Ct 2-10: 8 years concurrent to Count 1
Ct. 11 & 12: 8 years concurrent to Count 1
Ct. 13: 5 years concurrent to Count 1
Ct. 14, 15 & 16: 12 months concurrent to Count 1
In the State Penal System or such other institution as the
Commissioner of the Georgia Department of Corrections
or Court may direct, to be computed as provided by law.
So ordered this 15th day of October , 1997, [signature]
NUNC PRO TUNC to the 18th day of September, 1997.
J.S.C.C.C.
Min. - Final Record

Book

Page

37
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE

No. 3:15-CR-12-TAV-CCS
UNITED STATES OF AMERICA,
Plaintiff,
v.
WILLIAM DALE WOODEN,
Defendant.

MEMORANDUM OPINION AND ORDER

Before the Court is defendant William Dale Wooden’s
Motion to Withdraw Guilty Plea [Doc. 50]. The United
States responded in opposition to the defendant’s motion
[Doc. 54]. On August 22, 2017, the Court held a hearing in
which it heard argument on the defendant’s motion, as
well as the testimony of the defendant’s former counsel
[Doc. 57]. For the reasons explained below, the Court will
GRANT the defendant’s motion to withdraw his guilty
plea [Doc. 50].
I.

BACKGROUND

On March 3, 2015, the defendant was charged with being a felon in possession of a firearm and ammunition in
violation of 18 U.S.C. § 922(g)(1) [Doc. 1]. After the Court
granted the defendant several continuances and ultimately denied a motion to suppress, the defendant notified the United States and the Court that he wished to
change his plea to a plea of guilty [See Docs. 34, 35]. The
Court held a change of plea hearing on August 2, 2016, and
the defendant knowingly and voluntarily pleaded guilty to

38
being a felon in possession of a firearm and ammunition
[Doc. 35]. On May 16, 2017, the defendant’s original attorney filed a motion to withdraw [Doc. 46], which the
Court granted on June 9, 2017 [Doc. 48]. The Court appointed new counsel for the defendant on June 9, 2017
[id.], and with the aid of new counsel the defendant filed
the instant motion to withdraw his guilty plea on June 21,
2017 [Doc. 50].
Throughout this process, the defendant was advised
multiple times of the possibility that he could be designated as an armed career criminal, and that such designation would result in a fifteen-year mandatory minimum
sentence [Docs. 54-1 p. 6 (initial appearance), 34 p. 2 (factual basis in support of guilty plea), 54-2 pp. 9, 11–12
(change of plea hearing)]. The defendant’s prior counsel,
however, made clear to the defendant before he pleaded
guilty that it was highly unlikely he would be designated
as an armed career criminal. At the hearing on the defendant’s motion, his prior counsel testified that he repeatedly told the defendant he was “99% certain” the defendant would not be designated as an armed career criminal. This assessment was correct given the state of the
law at the time, as the parties and the United States Probation Office did not believe the defendant should be designated as an armed career criminal—the original presentence investigation report included a guidelines range of
21–27 months [Doc. 36], and the parties filed notices of no
objection to the presentence investigation report [Docs.
37, 38].
Between the defendant’s guilty plea and his sentencing hearing, the United States Court of Appeals for the
Eleventh Circuit issued its decision in United States v.
Gundy, 842 F.3d 1156 (11th Cir. 2016), in which it held that
Georgia burglary-of-a-building and burglary-of-a-dwelling-house convictions qualify as generic burglaries under
the Armed Career Criminal Act, 18 U.S.C. § 924(e). The

39
defendant possesses ten prior Georgia burglary-of-abuilding convictions, one burglary-of-a-dwelling-house
conviction, and one aggravated assault conviction. Thus,
after Gundy, the defendant’s criminal history dictates
that he be designated as an armed career criminal and,
therefore, be subject to a 180-month mandatory minimum
sentence.
After neither party objected to a guidelines range of
21–27 months’ imprisonment, the majority of which the
defendant had already served, the defendant was shocked
to learn he would be facing a mandatory minimum sentence of 180 months. Defendant’s original counsel testified that, upon learning of the armed career criminal designation, the defendant asked to withdraw his guilty plea.
Relying on the advice of his original counsel, however, the
defendant agreed instead to challenge his designation as
an armed career criminal. After this challenge proved futile, and within two weeks after appointment of new counsel, the defendant filed a motion to withdraw his guilty
plea [Doc. 50]. The defendant states that he would not
have pleaded guilty had he known designation as an
armed career criminal was a realistic possibility, and that
he deferred to his original counsel’s assessment of the
armed career criminal issue and whether to withdraw his
guilty plea immediately after the Gundy decision.
The defendant possesses a ninth-grade education,
and states that he relied almost entirely on the advice of
counsel to guide him in his defense [Doc. 51]. The defendant has significant experience in state criminal justice systems, but prior to this offense had no experience in the
federal criminal justice system. Although the defendant
concedes that he ultimately admitted guilt at his change
of plea hearing, he argues that he initially maintained his
innocence, and that a state charge arising out of the same
facts as the instant federal charge was dismissed after the
defendant asserted his innocence.

40
II. ANALYSIS

Granting a defendant permission to withdraw a guilty
plea is a matter “within the broad discretion of the district
court.” United States v. Valdez, 362 F.3d 903, 912 (6th Cir.
2004). The defendant bears the burden of showing “a fair
and just reason for requesting the withdrawal.” Fed. R.
Crim. P. 11(d)(2)(B). In determining whether the defendant has presented a fair and just reason for withdrawing
his guilty plea, the Court weighs the following factors:
(1) the amount of time elapsed between the plea
and the motion to withdraw; (2) the presence or
absence of a valid reason for not moving to withdraw earlier; (3) whether the defendant has asserted or maintained his innocence; (4) the circumstances underlying the entry of the guilty
plea; (5) the defendant’s nature and background;
(6) the degree to which the defendant has prior
experience in the criminal justice system; and (7)
the potential prejudice to the government if the
motion is granted.
United States v. Bashara, 27 F.3d 1174, 1181 (6th Cir.
1994). These factors, commonly known as the Bashara
factors, do not constitute an exclusive list of the factors
the Court may consider; no single factor is dispositive, and
the Court need not analyze each factor. United States v.
Bazzi, 94 F.3d 1025, 1027 (6th Cir. 1996). Nevertheless,
the Court will address each of the Bashara factors in turn.
A.

Time Elapsed Between the Plea and the Motion
to Withdraw

The defendant pleaded guilty on August 2, 2016 and
moved to withdraw his guilty plea on June 21, 2017. This
amounts to a ten-month period between the defendant’s
guilty plea and motion to withdraw. Absent mitigating circumstances, such an extensive delay would weigh heavily
against the defendant. See United States v. Ryerson, 502

41
F. App’x 495, 499 (6th Cir. 2012) (upholding this Court’s
denial of a motion to withdraw guilty plea based in part on
an eight-month delay).
B. Presence or Absence of a Reason for Not Moving
to Withdraw Earlier

According to the defendant’s original counsel, the defendant immediately asked to withdraw his guilty plea
upon learning that he faced designation as an armed career criminal. The defendant’s original counsel, however,
convinced the defendant that the better course of action
would be to challenge his designation as an armed career
criminal. Heeding the advice of counsel, the defendant
agreed to not move to withdraw his guilty plea at that
time. The defendant later moved to withdraw his guilty
plea within two weeks of the appointment of his current
counsel.
This series of events mitigates the effect of the extensive delay between the defendant’s guilty plea and his motion to withdraw. As discussed in more detail below, the
defendant’s near-complete reliance on counsel in this situation was understandable given his lack of education or
experience in the federal criminal justice system and his
original counsel’s certainty that he would not be designated as an armed career criminal. The Court thus concludes that the extensive delay between the defendant’s
guilty plea and motion to withdraw weighs against the defendant, but not heavily.
C.

Whether the Defendant Asserted or Maintained
His Innocence

The defendant initially asserted his innocence by
pleading not guilty [Doc. 5]. The defendant also asserted
his innocence with regard to a state court charge arising
out of the same facts as the instant charge, which was
later dismissed. The defendant then admitted guilt at his
change of plea hearing [Doc. 35]. The Court finds that

42
under these circumstances this factor weighs in favor of
neither the defendant nor the government.
D. The Circumstances Underlying the Entry of the
Guilty Plea

Despite the Court’s warnings that the defendant
could be designated as an armed career criminal, the defendant relied on his original counsel’s advice—that he
would not be designated as an armed career criminal—in
deciding to plead guilty. The defendant’s original counsel
told him he was “99% certain” the defendant would not be
designated as an armed career criminal, and this assessment was accurate given the state of the law at that time.
The United States and the United States Probation Office
agreed with this assessment, as the Probation Office filed
a presentence investigation report listing the defendant’s
guidelines range as 21–27 months [Doc. 36], to which the
government did not object [Doc. 37]. Also of note is the
fact that the defendant had served a majority of his expected sentence at the time of his decision to plead guilty,
and thus, relying on his original counsel’s assessment that
he would likely receive a sentence of 21–27 months, it
made strategic sense for the defendant to plead guilty at
that time.
Upon learning that he faced sentencing as an armed
career criminal after the Eleventh Circuit issued the
Gundy decision, and thus could expect a mandatory minimum sentence of 180 months as opposed to a guidelines
sentence of 21–27 months, the defendant immediately told
his original counsel that he wanted to withdraw his guilty
plea. The defendant’s original counsel instead suggested
that they challenge his designation as an armed career
criminal. Again deferring to his original counsel’s advice,
the defendant agreed to not move to withdraw his guilty
plea at that time.
The defendant clearly states that he would not have
pleaded guilty had he known designation as an armed

43
career criminal was a realistic possibility, and that he deferred to his lawyer’s assessment of the armed career
criminal issue and the decision to not move to withdraw
his guilty plea immediately after Gundy. The defendant’s
near-complete reliance on his counsel, with regard to both
of these decisions, is understandable given the defendant’s background. The defendant was in no position to independently make informed decisions as to his defense
given his lack of education and experience in the federal
criminal justice system. These factors, when considered
alongside the conviction of his original counsel’s assessments, left the defendant with little choice but to defer to
the advice of his original counsel. These circumstances
weigh in favor of permitting the defendant to withdraw
his guilty plea.
E. The Defendant’s Nature and Background

The defendant has a ninth-grade education and is currently disabled. He has worked as a painter and general
laborer. Independently, these factors are not so significant that they weigh heavily in the defendant’s favor. See
United States v. Valdez, 362 F.3d 903, 906 (6th Cir. 2004).
However, these factors weigh slightly in the defendant’s
favor, and more importantly they support his deference to
the advice of counsel, as discussed above.
F.

The Defendant’s Prior Experience in the
Criminal Justice System

The defendant has extensive experience in state criminal justice systems, but this is his first experience in the
federal criminal justice system. Significantly, the defendant has no prior experience with the federal sentencing
guidelines or the Armed Career Criminal Act. This Court
has previously found that under these circumstances this
factor weighs in favor of neither party, and that conclusion
remains sound. See United States v. Ryerson, No. 3:09cr-66, 2012 WL 113783, at *7 (E.D. Tenn. Jan. 13, 2012),

44
affirmed, 502 F. App’x 495 (6th Cir. 2012) (“On balance,
the court found that [the defendant’s experience in the
criminal justice system] was neutral, and the record supports this finding.”).
G. The Potential Prejudice to the Government if the
Motion is Granted

The issue of prejudice to the government becomes
relevant only if the defendant has established a fair and
just reason to withdraw his guilty plea. United States v.
Osborne, 565 F. Supp. 2d 927, 938–39 (E.D. Tenn. 2008).
Based on the factors discussed above, the Court finds the
defendant has established a fair and just reason for withdrawal sufficient for the Court to consider prejudice to the
government.
Prejudice to the government can include wasted government resources and wasted judicial resources, id. at
939, but the time and expense of trial constitutes prejudice only when the government must spend time and expense preparing for trial beyond what would normally be
expected due to the defendant’s decision to withdraw his
guilty plea, id. at 927. The United States argues that time
has been wasted throughout this process, but makes no
additional argument identifying unique circumstances in
this case that would increase the time or expense needed
to prepare for trial beyond what would normally be expected. Furthermore, the Court previously ruled on a motion to suppress in this case. The parties have thus already devoted time and resources toward preparing for
trial, and need not revisit that phase of pretrial litigation
moving forward. For these reasons, the Court finds that
any prejudice the government may suffer as a result of
the defendant’s withdrawal of his guilty plea is insufficient
to overcome the fair and just reason for withdrawal.

45
III. CONCLUSION

The Court finds the Bashara factors weigh in favor of
permitting the defendant to withdraw his guilty plea. The
defendant’s reliance on counsel regarding his potential
designation as an armed career criminal was understandable given his lack of education and experience in the federal criminal justice system and his counsel’s degree of
certainty on the subject. Despite the Court’s warnings, it
was reasonable under these circumstances for the defendant to proceed with his guilty plea under the assumption
he would not be designated as an armed career criminal.
The defendant’s reliance on counsel also mitigates the extensive amount of time between his guilty plea and his motion to withdraw. Additionally, the large disparity between his original guidelines range of 21–27 months and a
mandatory minimum sentence of 180 months weighs in
the defendant’s favor, as does the relative lack of prejudice
to the government. For these reasons, the Court finds the
defendant has presented a fair and just reason for requesting to withdraw his guilty plea. Accordingly, defendant’s motion to withdraw his guilty plea [Doc. 50] is
GRANTED and the trial of this case is rescheduled for
Tuesday, January 30, 2018, at 9:00 a.m. The plea negotiation
deadline is rescheduled to Tuesday, January 16, 2018. The
period of time between the defendant’s guilty plea and the
new trial date shall be fully excludable time under the
Speedy Trial Act. See 18 U.S.C. § 3161(i).
IT IS SO ORDERED.
s/ Thomas A. Varlan
CHIEF UNITED STATES
DISTRICT JUDGE

46
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TENNESSEE
AT KNOXVILLE
UNITED STATES OF
AMERICA,
Plaintiff,
Case No.: 3:15-CR-12

vs.
WILLIAM DALE WOODEN,
Defendant.

SENTENCING PROCEEDINGS
BEFORE THE HONORABLE THOMAS A. VARLAN
February 21, 2019
2:39 p.m. to 3:51 p.m.
APPEARANCES:
FOR THE PLAINTIFF:

LUKE A. MCLAURIN,
ESQUIRE
CYNTHIA F. DAVIDSON,
ESQUIRE
Assistant United States
Attorney
United States Department of
Justice Office of the United
States Attorney
800 Market Street
Suite 211
Knoxville, Tennessee 37902

FOR THE DEFENDANT:

MICHAEL B. MENEFEE,
ESQUIRE

47
Menefee & Brown, LLP
9724 Kingston Pike
Suite 505
Knoxville, Tennessee 37922
ALSO PRESENT:

WILLIAM DALE
WOODEN, DEFENDANT
* * *

[3:1]
[THE COURT:] confirm you’re represented here this
afternoon by Mr. Michael Menefee. Is that correct?
THE DEFENDANT: Yes, sir.
THE COURT: All right. Mr. Wooden, on May 30,
2018, a jury returned a verdict of guilty of Count -- on
Count 1 of the indictment in this case, charging you with
being a felon in possession of a firearm and ammunition,
in violation of 18 United States Code Section 922(g)(1).
Do you understand that if it is determined -- and I
know this is an issue we’ll address in just a moment, but
do you understand if it is determined that you are an
armed career criminal within the meaning of 18 United
States Code Section 924(e), then the offense described in
Count 1 requires a sentence of 15 years to life in prison,
up to five years of supervised release, a fine of up to
$250,000, and a $100 special assessment?
THE DEFENDANT: Yes, sir, Your Honor.
THE COURT: Mr. Wooden, have you received and
had the opportunity to read and discuss the presentence
report in this case with your attorney?
THE DEFENDANT: Yes, sir, Your Honor.
THE COURT: Mr. Menefee, have you received the
presentence report and reviewed it with Mr. Wooden?
MR. MENEFEE: Yes, Your Honor.
THE COURT: All right. The Court has received [4]
defendant’s objections to the presentence report. Before

48
we go into those, let me first ask, the government has no
objections. Is that correct?
MR. McLAURIN: That’s correct, Your Honor.
THE COURT: All right. Before we go into the objections, particularly those related to the armed career
criminal designation, first, I do want to ask you -- and now
I’m asking you just if you affirm the existence of these
convictions, not whether they qualify you for armed career criminal status. Do you understand what I’m asking?
I’ll ask the question and see if you have any questions.
THE DEFENDANT: Yes, sir, Your Honor.
THE COURT: All right. First, Paragraph 32 of the
presentence report identifies ten burglary convictions in
the Superior Court of Whitfield County, Georgia, Docket
No. 37326-J.
Do you affirm the fact that these prior convictions occurred?
THE DEFENDANT: Yes, sir, Your Honor.
THE COURT: And then let’s see, next, Paragraph 36
references the burglary conviction in the Superior Court
of Murray County, Georgia, Docket No. 05-CR-355.
Do you affirm the existence of or the fact that this
prior conviction occurred? [5]
THE DEFENDANT: Yes, sir, Your Honor.
THE COURT: And then -- just a moment. Paragraph 26 identifies -- or identified in the presentence report at Paragraph 26 is the aggravated assault conviction
in Superior Court, Murray County, Georgia, Docket No.
89-CR-3624.
Do you affirm, again, just the fact of this prior conviction?
THE DEFENDANT: Yes, sir, Your Honor.
THE COURT: All right. Do you understand any
challenge to these prior convictions not made before sentence is imposed may not thereafter be raised to attack

49
the fact of the sentence? Not precluding you -- we’ll discuss the armed career criminal history, but now I’m just
asking you to understand that any challenge to the fact of
these prior convictions not made before sentence is imposed may not thereafter be raised to attack the existence
of those sentences. Do you understand that?
THE DEFENDANT: Yes, sir, Your Honor.
THE COURT: In light of that, do you still affirm the
fact of these prior convictions?
THE DEFENDANT: Yes, sir.
THE COURT: Now, let’s drop back to the defendant’s objections to the presentence report. There’s two
besides the objection to career offender status -- or armed
career criminal status. Is that correct?
* * *
[14:1]
[MR. MENEFEE:] that a violent felony must involve
purposeful, violent, and aggressive conduct, and the Court
will remember that Begay was a DUI case that held that
negligent conduct, such as a DUI, would not qualify as a
violent crime under the Armed Career Criminal Act.
Another case out of the Fourth Circuit, United States
vs. Martin, was a -- interpreted a Maryland burglary statute, and held that it was not a predicate under this clause,
under the Armed Career Criminal Act, because it could
be committed with negligent conduct.
Just like this -- I can’t even think of a better example
than this motorcycle case. But, essentially, in Georgia,
reading the statute, if you were driving your car down the
street and didn’t see someone in the street, caused them
to jump out of the way, and you were just driving negligently, you could be convicted under this statute. And that
is -- that -- we would argue that is not what is intended
under the Armed Career Criminal Act.

50
Moving on to the burglary convictions. Paragraph 32
of the presentence investigation report states that Mr.
Wooden’s 1997 Georgia burglary convictions qualify as a
predicate offense under the Armed Career Criminal Act.
We’ve objected to that.
The ’97 burglary convictions are the mini-warehouse
unit convictions. There are ten counts to the indictment
and [15] technically ten convictions, as the burglary described here alleged that the defendant and several others
broke into ten storage units all in a row, all in the same
occasion. We argue the conviction should be grouped into
one conviction under the Armed Career Criminal Act, not
ten, because burglaries -- all the burglaries were on the
same occasion, during the same criminal episode at the
same place, at the same business location, under the same
roof, charged in a single indictment and charged -- served
under the same sentence.
Under the facts of this case, there’s no principled way
to distinguish between the beginning of the first burglary
and the beginning of the second or third burglaries. The
government cites to a case, United States vs. Carnes, that
held that two burglaries in two different houses in the
same neighborhood committed on the same night counted
as to different burglaries.
And that court held there were two separate burglaries, because the defendant in that case completed one
burglary, paused, presumably had time to consider calling
it a night and stopping, and then decided to commit a second burglary.
We would argue this case is more akin to United
States vs. Murphy, Sixth Circuit case where there was a
robbery of a duplex connected together, like the storage
units where the defendant and several other defendants,
like in this case, [16] convicted of robbing two sides of the
duplex.

51
That Court held that Murphy never ceased his original conduct. He never successfully escaped the site for
the first crime until the second crime was completed. Accordingly, the Court held that the defendant’s convictions
for the robberies of the two sides of the duplex constituted
one single criminal episode for purposes of defining the
predicate offense under armed career criminal.
We would argue that -- and in this case, the facts of
this case are that there were several people that were
charged under -- charged with burglarizing these units.
Mr. Wooden was only a part of a group of people that were
charged. And there is no evidence before the Court that
they robbed one unit at a time. In fact, these units were
all enclosed in one building and were all -- all robbed at
the exact same time. And there’s no evidence to the contrary of that.
And, again, to prove otherwise, the burden is on the
government.
Next, Mr. Wooden argues that this set of burglaries
convictions and along with his 2005 conviction of burglary
described in Paragraph 36 of the presentence investigation report are not predicate offenses under the Armed
Career Criminal Act.
And, admittedly, we’re marching uphill on this, and
we recognize that. We recognize that the Gundy decision
has [17] come down, we recognize that the Richardson decision has come down, and there’s been other cases, Vowell, that has come down, against our position here. We are
still arguing that the Georgia burglary statute is divisible
-- or that we’re arguing that the Georgia burglary statute
should not be held as divisible as both of those cases, both
the Gundy and Richardson cases, and those line of cases
are contrary to Georgia case law.
There are Georgia case -- Georgia state cases that
consistently held that that there are two essential elements of Georgia burglary. There’s unlawful entry of a

52
dwelling or building, and the second element is intent to
commit a felony or theft therein.
Georgia cases have consistently held that the type of
structure is not an element of burglary. There are plenty
of cases allowing a defendant to be charged with burglarizing one type of structure and then being convicted of
burglarizing a different type of structure.
And we have cited to those cases in our previous sentencing memorandums and responses, so I’m not going to
go over all those again.
If -- if the Court -- in the event that this Court disagrees with Mr. Wooden and wants to follow the Gundy decision, or if the Court decides that after United States vs.
Stitt, the entire Georgia burglary statute fits within the
[18] definitions of generic burglary, Mr. Wooden would
just reiterate that the set of convictions described in Paragraph 32, the warehouse-unit burglaries should be
grouped as one conviction, leaving Mr. Wooden with two
qualifying predicate offenses under the Armed Career
Criminal Act and not three.
That’s the -- everything else that we would argue is
laid out in our sentencing memorandum.
THE COURT: Thank you. Thank you for the oral
presentation as well as the detailed sentencing memorandum.
Hear from the government now in response.
MR. McLAURIN: Yes, Your Honor.
I’ll just go in reverse order here and start with the
last point about the burglary offenses. I think it’s quite
clear in light of the Sixth Circuit’s decision of Richardson,
which is binding on this Court, that Georgia’s burglary
statute is divisible. That is an accurate reading of Georgia
law.
I know my colleague here said that the Georgia cases
have said that the precise location of the burglaries is not

53
an element of offense. That is not accurate. The Georgia
cases have said the contrary, as is noted by the Eleventh
Circuit in Gundy, as is noted by the Sixth Circuit in Richardson. Georgia’s burglary statute is divisible based on
the type of location burglarized.
Here, the indictment for the ten burglary offenses
[19] indicate that each one of those burglary offenses was
for a building, which is the very type of Georgia burglary
that Richardson is saying qualifies as a generic burglary
and thus a violent felony under Armed Career Criminal
Act.
His other burglary conviction in 2005 involved a
dwelling house, again, another type of varying of Georgia
burglary that the Sixth Circuit has said counts as a violent
felony. In light of Richardson, I think the Court is bound
to hold that those offenses qualify as generic burglary.
The more difficult question for the Court is whether
or not the ten burglary offenses that were committed in
1997 qualify as a single ACCA predicate offense or
whether they were committed on occasions different from
one another.
Under the Sixth Circuit case law, we believe that the
Court has to answer that question in that they are separate offenses. The Sixth Circuit said that, you know, offenses are separate if they meet one of three tests, right,
if they were committed in different business locations, if
it’s possible to discern the point at which the first offense
was completed and the subsequent offense was begun, or
if it’s possible for the offender to have ceased his criminal
conduct after completing the first offense before going on
to commit the second offense.
Under any one of these three tests, these ten burglaries qualify as ten separate offenses. If you look at them,
they were actually -- the indictment for them, which is [20]
the only facts that we know about them, point out that -counsel has suggested or alleged some facts about the

54
warehouse location. None of those facts are in the record.
There is no information that this Court can rely upon,
other than what is included in the Shepard documents for
those prior convictions. The Shepard documents conclude
that each one of those burglaries was for a different -- occurred in a different mini-warehouse location, a different
business location, a warehouse that belonged to a specific
victim.
And if you look at the indictment, it actually lists different victims, different individuals who owned those mini
-- who had rented out those mini warehouses. Those were
discrete business locations. So under that third hill test,
these offenses clearly count as separate.
If you look at the other hill test, they also count as
separate. Right. The offense of burglary is complete once
an individual enters a location unlawfully with intent to
commit a felony. So once Mr. Wooden entered the first
mini warehouse with intent to commit a felony, he had
committed a burglary. And he could have ceased his criminal conduct at this point. That burglary offense was complete. He then went and chose to commit nine more burglary offenses. After each offense, he could have stopped
his criminal conduct. He did not. He went and continued
committing burglaries.
Now, I know that there’s been reference to this case
[21] involving a situation with two robberies that incurred
inside of a duplex. I would argue that that situation is
quite distinguishable from a situation of burglary. Because unlike robbery, which is a victim-focused offense,
burglary is a location-focused offense. Right. You cannot
be in two locations at the same time.
You can rob two people at the same time. Right. You
can point a gun at two different people at the same time,
rob them both on the same occasion. Robbery, you can
have multiple robberies that occur on the same occasion.

55
You can’t burglarize different locations at the same
time, because you can only be in one place at one time.
And so Mr. Wooden’s burglary offense of the first mini
warehouse was complete and was occurring at the moment he was in that mini warehouse. As soon as he moved
to another mini warehouse, he was committing another
burglary offense. He could have stopped his string of burglaries at any point. He chose not to do so. He was
properly charged with ten separate burglary offenses and
properly convicted of ten separate burglary offenses.
And under the Sixth Circuit case law, those ten separate burglaries count as offenses committed on occasions
different from one another. Because at any point in time,
he could have stopped his burglary spree. He chose not
do so, and he now has to face the consequences for that.
* * *
[27:7]
MR. MENEFEE: Your Honor, just two points. The
-- under the burglary convictions that you’re considering
for the mini-warehouse unit, the government has taken
the position that these were different business locations,
and there’s -- there is no evidence of that. In fact, this is - this is one business location. This is a -- like any miniwarehouse place, it’s one business location.
And there -- the -- what the -- what the government
is wanting the Court to do is to make some assumptions,
to make some assumptions about -- that Mr. Wooden went
from one unit, robbed that unit or burglarized that unit,
and then went to the second unit, and then went to the
third unit, and then went to the fourth unit, and make an
assumption that that’s how this burglary took place.
There were four individuals in this. And I don’t need
to give the Court all the possibilities that could have happened here, but one possibility is that Mr. Wooden came
late to the burglary, after they drug everything out in the

56
hallway and helped them load it in the truck, and he’d still
be [28] convicted of burglary or helping with these other
individuals to burglarize all these units. And maybe he
never went into any of the units.
But the fact of the matter is, those facts aren’t before
the Court, and neither is the fact that Mr. Wooden went
from one unit to the next unit, to the next unit, to the next
unit. Those -- they’re not there.
And between the two cases that we were looking at,
the -- between the case where they were robbing a -- or
they had a robbery of the duplex or two separate houses
in the same neighborhood, this is much closer to the duplex than the other.
So I would argue that the government hasn’t carried
its burden on -- you know, on whether or not -- on how this
burglary took place.
* * *
[33:1]
[THE COURT:] the offense conduct paragraph or
paragraphs of the presentence report and does further
note as the government notes that this objection would
not otherwise impact defendant’s Guideline sentence.
Obviously, again, the most significant objections are
defendant’s objection to the listing of the predicate offenses which would determine whether he is an armed career criminal.
Defendant objects to Paragraph 18, 20, 26, 32, 36, 68,
and 69 of the presentence report, arguing he does not
have three prior convictions that would be necessary to
qualify as predicate offenses under the ACCA. Among
other things, he states that his prior convictions for Georgia burglary -- or more specifically states his convictions
for Georgia burglary and aggravated assault do not qualify as a predicate offenses under the ACCA.

57
The presentence report, defendant’s classified as an
armed career criminal based on multiple convictions, one
Georgia aggravated assault conviction, contained at Paragraph 26 of the presentence report; ten Georgia burglary
of a building convictions from 1997, contained Paragraph
32 of the presentence report; and one Georgia burglary of
a dwelling house conviction from 2005, contained at Paragraph 36 of the presentence report.
After considering the parties’ arguments, both in
writing and here in Court today, as well as the relevant
law [34] and facts and focusing on -- at this point on the
burglary convictions, both the multiple burglary of a
building convictions and the one burglary of a dwelling
house conviction, the Court would determine that these
convictions do count or qualify as predicate offenses under
the Armed Career Criminal Act.
As noted, the Sixth Circuit has explicitly held that
Georgia burglary qualifies on a predicate offense under
the Armed Career Criminal Act.
In Richardson v. United States, Sixth Circuit case,
the Sixth Circuit conducted a categorical approach with
respect to Georgia’s burglary statute, Georgia Code Section 16-7-1, the same version of the statute in effect at the
time of this defendant’s convictions. The Sixth Circuit
held the statute was divisible because it contains alternative locational elements, and further held that the building
and dwelling house variance qualifies generic burglary
under the Armed Career Criminal Act.
It’s also noted and was argued the Eleventh Circuit
reached the same result, albeit on somewhat difference
reasoning in United States v. Gundy, 2016, Eleventh Circuit case.
Because the statute is divisible, the Court is permitted under Shepard v. United States to consider a limited
class of documents from the convicting Court, including

58
[35] charging documents, plea agreements, plea colloquies, and jury instructions, referred to as Shepard documents to determine which variant the defendant was convicted of. This is called the so-called modified categorical
approach.
And here, these documents as presented to the Court
and the Court’s determination made clear that defendant
was convicted of the building and dwelling house variance
of Georgia burglary, which the Sixth -- which the Sixth
Circuit has held to be an ACCA predicate in Richardson.
The indictment for the 1997 convictions, of which
there were ten, indicate that each one was for burglary of
a building. And the indictment for the 2005 conviction indicates that it was for burglary of a dwelling house. The
Court reviewing the documents submitted as Document
85 and the various exhibits thereunder. And, again, under
Richardson, these prior burglary convictions qualify as violent felonies.
Defendant further argues that the ten 1997 burglaries should be counted as one predicate for purposes of
the Armed Career Criminal Act. Here, however, the 1997
indictment demonstrates that the defendant burglarized
ten separately numbered mini warehouses belonging to
different victims. To qualify as separate under the ACCA,
offenses must have been committed on occasions different
from one other under 18 United States Code Section
924(e)(1).
And as the government noted in its argument, offenses [36] meet that standard if -- again, quoting or paraphrasing from the Sixth Circuit decision in United States
v. Jones, if it is, one, it is possible to discern the point at
which the first offense is completed and the subsequent
point at which the second offense begins; two, it would
have been possible for the offender to cease his criminal
conduct after the first offense and withdraw without committing the second offense; or three, the offenses are

59
committed in different residences or business locations.
Again, quoting from U.S. v. Jones, 2012, Sixth Circuit
case.
Offenses are separate predicates if they meet any of
these three tests. And the Court concludes that the defendant’s crimes do satisfy at least the first two tests.
Each separate mini warehouse provides a discrete point
at which the first offense was completed and the second
began and so on, and it was possible for the defendant to
stop at any point between the mini warehouses; thus,
each, the Court concludes, is a separate predicate conviction for purposes of the Armed Career Criminal Act.
So given this analysis, and given what the Court determines to be the Sixth Circuit precedence on this issue,
or on the matter of the burglary of a building and burglary
of a dwelling house, the Court would conclude the defendant has, in addition to the one conviction for dwelling
house burglary, ten convictions for Georgia burglary of a
building, all of which [37] the Court finds to be predicate
offenses under the Armed Career Criminal Act.
So in light of these conclusions, while the Court appreciates the arguments and analysis related to the aggravated assault conviction, the Court is going to in this
instance accept the government’s invitation not to make a
ruling on whether the aggravated assault conviction qualifies as a predicate offense for Armed Career Criminal Act
purposes.
The Court notes in the 2013 case of United States v.
Jenkins, a Sixth Circuit case, that Court quoted as follows:
The ACC requires just three prior convictions, not more;
the rest is overkill, closed quote.
In light of that, in light of the Court’s previous ruling
with respect to the Georgia burglary convictions, the
Court will decline to make a ruling on the aggravated assault convictions.

60
In that regard, the Court determines that defendant’s
objections to Paragraphs 18, 20, 32, 36, 68, and 69 of the
presentence report are overruled, and that the objection
to Paragraph 26 is denied as moot.
And as a result, the Court determines that the
presentence report Paragraph 69 accurately reflects the
advisory Guideline range in this case, based upon a total
offense level of 33 and criminal history category of IV, a
Guideline imprisonment range of 188 months to 235
months.
* * *
[43:21]
[THE COURT:] Here, in light of everything discussed, including the Guideline range and the relevant
3553 factors, and considering the arguments and positions
of the parties, the Court will impose a Guideline sentence
of 188 months.
For all the reasons discussed, the Court finds this [44]
sentence to be sufficient, but not greater than necessary,
to comply with the purposes of 18 U.S.C. Section 3553.
Again, in light of the Court’s previous rulings, the defendant is subject to a statutory mandatory minimum of
15 years or 180 months.
To the extent the defendant requests the Court to
vary below the Guideline range of 188 months to 180
months, the Court would overrule or deny that request.
The Court certainly takes into consideration the facts discussed by the defendant via his counsel, including his
multi-year stay in multiple local prisons or jails pending
his trial and sentencing today in this case, but given the
3553 factors, and given the facts as argued by the defendant, the Court does not believe that these facts and circumstances take the defendant outside the heartland of
cases to which the Guidelines and/or defendant’s status as
an armed career criminal would otherwise apply.

61
So, again, the Court finds a Guideline sentence of 188
months to be sufficient, but not greater than necessary, to
comply whether the purposes of 18 U.S.C. Section 3553.
Pursuant to 18 U.S.C. Section 3553(c)(1), the Court
notes it finds a sentence at the low end of the Guideline
range justified in this case, based upon the Court’s belief
that such a sentence adequately reflects the seriousness
of the instant offense and protects the public from further
crimes being committed by the defendant. [45]
Furthermore, the Court will impose in this case a
term of supervised release of three years. The Court finding that term of supervised release, again, to be appropriate based upon its 3553 analysis.
The Court will also impose all of the standard conditions, as well as the following special conditions of supervision, specifically, though, set forth in Paragraphs 80
through 82 of the presentence report related to participation in a program for testing and treatment for drugs
and/or alcohol, as well as submitting to searches upon reasonable suspicion of any violation of the conditions of the
supervision. As well as, finally, based upon the defendant’s criminal history, participation in a program that addresses domestic violence, anger management, or general
violence, as directed by the probation officer.
The Court finding these special conditions of supervised release, to which there’s not been objection, specifically to be reasonably related to the several sentencing
factors discussed by the Court, including but not limited
to the nature and circumstances of the offense and the history and characteristics of the defendant, as well as the
need for the sentence imposed to afford adequate deterrence to criminal conduct, and to protect the public from
further crimes of the defendant.
The Court, second, finds these special conditions to
[46] involve no greater deprivation of liberty than

62
reasonably necessary for those several purposes, again,
including but not limited to the need to afford adequate
deterrence to criminal conduct and to protect the public
from further crimes of the defendant, as well as to provide
the defendant with needed educational or vocational training, medical care, or other correctional treatment in the
most effective manner. And, third and finally, the Court
finds these conditions to be consistent with any pertinent
policy statements issued by the Sentencing Commission.
Accordingly and pursuant to the Sentencing Reform
Act of 1984, it is the judgment of the Court as to Count 1
of the indictment that the defendant, William Dale
Wooden, is hereby committed to the custody of the Bureau
of Prisons for a term of imprisonment of 188 months.
* * *

